DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General


        Buy American Act Compliance




            Office of Audits

OIG-06-37                      May 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      May 31, 2006


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report assesses DHS’s compliance with the Buy American Act and its progress in implementing
our prior audit recommendations. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                                     Richard L. Skinner
                                                     Inspector General
Table of Contents/Abbreviations

Executive Summary ...............................................................................................................................1

Background……………………………………………………………………………………………3

Results of Audit ..................................................................................................................................5

     DHS Compliance On An Agency-Wide Level Not Determined .....................................................5

     Prior Report Recommendations Status ............................................................................................5


Appendices
     Appendix A: Purpose, Scope and Methodology.............................................................................9
     Appendix B: Major Contributors to this Report ..........................................................................11
     Appendix C: Report Distribution..................................................................................................12


Abbreviations

     BAA                              Buy American Act
     CBP                              Customs and Border Protection
     CG                               United States Coast Guard
     DAU                              Defense Acquisition University
     DHS                              Department of Homeland Security
     FAR                              Federal Acquisition Regulation
     FEMA                             Federal Emergency Management Agency
     FLETC                            Federal Law Enforcement Training Center
     FY                               Fiscal Year
     FPDS-NG                          Federal Procurement Data System – Next Generation
     HR                               House of Representatives
     HSCIS                            Homeland Security Contract Information System
     ICE                              Immigration and Customs Enforcement
     OCPO                             Office of Chief Procurement Officer
     OFPP                             Office of Federal Procurement Policy
     OPO                              Office of Procurement Operations
     OE                               Operating Entity
     OIG                              Office of Inspector General
     TSA                              Transportation Security Administration
     USSS                             United States Secret Service
                                                                                                     Audit
OIG                                                                                                  Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                           The Buy American Act (BAA) was enacted in 1933 to encourage the federal
                           government to buy from American companies. Since then Congress has
                           modified the law, adding numerous exemptions and trade agreements that
                           permit the federal government to purchase foreign products from other
                           countries.

                           The House of Representatives Conference Report H.R. 109-79 (Conference
                           Report) for the Department of Homeland Security’s (DHS) Appropriations
                           Act, fiscal year (FY) 2006 (Public Law 109-90) directed the Office of
                           Inspector General (OIG) to audit DHS’s BAA compliance. In this audit, we
                           focused on follow-up of our prior report recommendations and reviewed a
                           sample of contracts that included contracts with foreign purchases as well as
                           contracts without foreign purchases to determine whether those contracts were
                           in compliance with BAA.1 We performed fieldwork from December 2005
                           through April 2006 at several DHS Operating Entities (OEs). See Appendix
                           A for a more detailed description of our objective, scope, and methodology.

                           In our review of contracts, we noted no significant BAA compliance issues.
                           Our contract review included looking at a sample of contracts from the
                           FY 2005 foreign purchase reports, contracts awarded during FY 2005, and
                           contracts shown in the Homeland Security Contract Information System
                           (HSCIS) as having foreign countries of origin. Contracts reviewed totaled
                           $199 million; BAA compliance exceptions represented less than one percent
                           of contracts reviewed.

                           We cannot, however, determine whether DHS complied with BAA
                           requirements on a comprehensive, agency-wide level because of system
                           limitations and manual reporting errors. Neither the HSCIS nor the Federal
                           Procurement Data System – Next Generation (FPDS-NG) has the current
                           capability to identify all contracts used to purchase foreign products.2
                           Additionally, because of reporting inaccuracies in the manual monitoring

1
  Audit of Buy American Act Compliance, OIG-05-23, June 2005.
2
  HSCIS is a DHS database of procurement actions that are reported to FPDS-NG. FPDS-NG collects historical and
statistical information about the federal government’s procurement contracts to meet the information needs of Congress,
federal agencies, and the public.
                                              Buy American Act Compliance

                                                          Page 1
process, DHS continues to revise its FY 2005 Foreign Purchase report.
Therefore, we cannot ascertain whether the report is accurate or complete. As
of the end of fieldwork, DHS had identified $219 million in FY 2005 foreign
purchases.

DHS agreed with the recommendations in our June 2005 report and continues
to implement corrective actions. Specifically, our recommendations included
providing BAA training, completing implementation of automated contract
writing systems, improving automated reporting systems for tracking BAA
compliance, and continuing manual data collection requirements until these
systems are improved. Therefore, we made no additional recommendations.
We discussed our report with DHS on April 6, 2006. DHS concurred with the
report information.




               Buy American Act Compliance

                         Page 2
Background
                           Congress enacted the BAA of 19333 during the Depression to protect
                           American industry and workers by eliminating unfair foreign competition and
                           guaranteeing the continuance of certain critical industrial bases necessary for
                           national security. The BAA requires the federal government to purchase, with
                           certain exceptions, only domestic end products from U.S. companies. It does
                           not apply to professional or personal services.

                           Since its inception, Congress has modified the law, adding numerous
                           exemptions and trade agreements that permit the federal government to
                           purchase foreign products from other countries. The Federal Acquisition
                           Regulations (FAR) Part 25, “Foreign Acquisitions” lists BAA exceptions. The
                           federal government may purchase a foreign-end product if one of the following
                           conditions exists:

                               •    The products acquired are for use outside the U.S.

                               •    It would be in the public’s interest to do so.4

                               •    The product is not reasonably available in sufficient commercial
                                    quantities in the domestic market.

                               •    The cost of the domestic product is unreasonable.

                               •    The product is for resale.

                               •    The products are commercial information technology items.

                               •    The products are eligible products acquired under Trade Agreements.

                           The reasonableness of cost is determined by applying certain evaluation factors
                           to the foreign offeror’s proposed price before performing the price evaluation.5
                           If the price of the domestic offer exceeds the price of the foreign offer after the
                           addition of the evaluation factors, then the agency may purchase the foreign
                           end product.


3
  41 U.S.C. 10a-10d
4
  FAR does not specifically define “in the public’s interest”, except to say that this exception applies when an agency has
an agreement with a foreign government that provides a blanket exception to the BAA. Se, e.q., 48 C.F.R. 25.103(a).
5
  Federal Acquisition Regulation, 48 C.F.R. §§ 25.501 et seq.

                                               Buy American Act Compliance

                                                           Page 3
                          A domestic end product can also include foreign components.6 The FAR
                          defines a domestic-end product as (1) an un-manufactured end product mined
                          or produced in the United States; or, (2) an end product manufactured in the
                          United States, if the cost of its components mined, produced, or manufactured
                          in the United States exceeds 50 percent of the cost of all its components.
                          Therefore, a domestic acquisition may include as much as 49 percent of
                          foreign component cost and still be considered a domestic purchase.

                          Prior OIG Audit

                          In the Conference Report accompanying DHS’ FY 2005 appropriations,
                          Congress directed the Secretary of DHS to report to the Committees on
                          Appropriations on the supplies acquired by DHS during FY 2005 that were
                          manufactured outside of the United States, as well as an itemized list of all
                          waivers granted with respect to such supplies. The report required a summary
                          of the total funds spent by DHS on goods manufactured within the United
                          States compared with funds spent on goods manufactured outside of the United
                          States. The Conference Report also directed us to perform an audit of DHS’
                          BAA compliance.

                          DHS issued Acquisition Alert Number 05/04 on November 16, 2004, which
                          required DHS OEs to provide the required information to the DHS Office of
                          Chief Procurement Officer (OCPO). Although the Conference Report did not
                          specify a deadline for reporting to Congress, OCPO required all OE’s to
                          submit agency specific FY 2005 Foreign Purchase Reports by
                          October 31, 2005 to DHS.

                          We issued OIG-05-23, Audit of Buy American Act Compliance, in June 2005.
                          The audit focused primarily on DHS’ policies, procedures, and practices to
                          determine whether sufficient controls were in place to ensure that DHS fully
                          complied with BAA requirements. We reported that DHS and its OEs had
                          sufficient policies and procedures to ensure BAA compliance. However, we
                          could not fully validate BAA compliance because of DHS’s inability to
                          identify conclusively all procurements subject to BAA requirements.

                          We recommended that DHS provide additional BAA training, complete the
                          implementation of automated contract writing systems for all DHS OEs,
                          consult with OMB regarding the necessity of government-wide tracking of
                          BAA compliance, revise HSCIS guidance to make the country of origin field
                          required, when applicable, and to continue manual data collection until an
                          automated system becomes available.
6
  Component means an article, material, or supply incorporated directly into an end product or construction material (48
C.F.R. § 25.003).
.
                                              Buy American Act Compliance

                                                          Page 4
Results of Audit
     DHS Compliance On An Agency-Wide Level Not Determined
                        We noted no significant BAA compliance issues through our review of
                        74 contracts totaling $199 million for domestic and foreign end item
                        purchases. Contracts reviewed contained FY 2005 foreign purchases totaling
                        $31 million.7 Our sample of contracts included contracts selected from three
                        sources: the FY 2005 Foreign Purchase Reports; reports, obtained from
                        various OEs, of contracts awarded during FY 2005; and, supply contracts
                        shown in the HSCIS system containing foreign countries of origin. Our
                        review identified only $22 thousand in foreign purchases from DHS that did
                        not have proper BAA exemptions—less than one percent of the total contracts
                        reviewed. DHS acknowledged that it had no exemptions for these purchases
                        and immediately required BAA training for some of the procurement staff.

                        Although we identified no significant BAA compliance issues, we could not
                        validate DHS’s BAA compliance on a comprehensive, agency-wide level
                        because of system limitations and manual reporting errors. DHS and its OEs
                        did not have controls in place to conclusively identify all foreign purchases
                        and corresponding BAA exceptions. Contract information systems, such as
                        HSCIS and FPDS-NG, do not have the current capability to identify all BAA-
                        related contract activity and to report accurately on the types and amounts of
                        foreign products purchased by DHS.

                        Instead of using automated systems, DHS requires its OEs to manually collect
                        the BAA data required for the Conference Report. Initially DHS OEs
                        reported foreign product purchases totaling $164 million to the OCPO.
                        Because of reporting inaccuracies in the manual monitoring process, DHS
                        continues to revise the FY 2005 Foreign Purchase report. Furthermore, we
                        could not ascertain whether the report is accurate or complete because some
                        OE’s could not provide supporting documentation for foreign purchases
                        reported. At the end of fieldwork, OCPO had identified $219 million in
                        foreign purchases.




     7
         Amount represents total contract values. The exact amount of foreign and domestic-end products was not
         ascertainable.

                                           Buy American Act Compliance

                                                       Page 5
Prior Report Recommendations Status

          BAA Training Still Needed

          Although DHS has not yet provided specific BAA training to all of its
          procurement personnel, the Federal Law Enforcement Training Center
          (FLETC) and the United States Coast Guard (CG) have made some progress.
          In response to our current audit, FLETC required all of its procurement
          personnel to take online BAA training through the Defense Acquisition
          University (DAU). CG also provides online BAA training through the DAU
          to its procurement staff on an as needed basis.

          BAA is a complex law. Knowing exactly when the BAA applies is not
          always clear. While our limited review did not disclose any significant
          instances of BAA noncompliance, periodic training would further ensure
          BAA compliance. DHS stated that it would issue an acquisition alert requiring
          its procurement personnel to take the DAU BAA specific training as part of its
          mandatory training requirements.

          Automated Contract Writing Systems Still Necessary

          DHS is still in the process of deploying automated contract-writing systems to
          all of its OEs. Most of DHS’s OEs have automated contract-writing systems.
          Depending on the contract type selected, the automated systems will help
          contracting personnel by inserting applicable BAA clauses. FLETC and CG
          still have some individual procurement offices without access to automated
          contract writing systems.

          Offices without this capability must rely on the contracting officers to have
          the knowledge, training, and experience to know when to insert applicable
          clauses. This practice increases the risk of awarding contracts without full
          compliance with BAA requirements.

          FLETC plans on deploying an automated contract writing system during
          FY 2007. CG plans to deploy an automated contract writing system in two of
          its nine major procurement offices during FY 2006, with deployment to the
          remaining seven dependent on available funding.

          Improvements to HSCIS and FPDS-NG Systems

          Although HSCIS and FPDS-NG systems include fields for reporting the
          country of origin and the place of manufacture, the systems do not require
          users to complete these fields for many contract types. Further, DHS does not
          record the place of manufacture for any of its contract actions. DHS can
          require its OEs to complete these fields with minimal changes to the systems.
                          Buy American Act Compliance

                                    Page 6
                            Requiring OE’s to identify foreign countries of origin and place of
                            manufacturer will help identify contracts with foreign purchases. However, it
                            will not help determine whether DHS complied with the BAA by identifying
                            applicable exemptions or clarify the reporting requirements.

                            Future changes to BAA reporting capabilities will be made in FPDS-NG
                            because DHS will phase out HSCIS when FPDS-NG becomes fully
                            operational at the end of FY 2006. Therefore, OCPO will not modify BAA
                            reporting capabilities within HSCIS.

                            According to representatives from the OMB Office of Federal Procurement
                            Policy (OFPP), FPDS-NG’s Place of Manufacture field does not meet the
                            current reporting needs. FPDS-NG does not clearly define the data required
                            in the Place of Manufacture field, an issue that has contributed to inconsistent
                            reporting among some Federal agencies. In addition, it does not require the
                            user to identify the applicable BAA exemptions required by the Conference
                            Report.

                            In response to the confusion surrounding the foreign purchase reporting
                            requirements, in October 2005, the Federal Acquisition Regulation (FAR)
                            Principals tasked the FAR Law Team to prepare a report and draft a proposed
                            rule on Reporting of Overseas Purchases.8 The FAR Law Team has drafted
                            an interim rule concerning the reporting of overseas purchases and, once
                            approved by the appropriate counsels, will publish the interim rule in the
                            Federal Register. The FAR Law Team will require FPDS-NG changes
                            necessary to meet the reporting requirements.

                            The proposed new interim rule, if approved, will create a new solicitation
                            provision to collect data on the place of manufacture for acquisitions
                            pertaining to the purchase of manufactured-end products only. The FAR will
                            also define manufactured-end products and will require reporting on the
                            acquisition, not line item, level. Contracting officers will place the new
                            provision and corresponding clauses in solicitations and contracts that are
                            predominately for acquisitions of manufactured-end products, as defined by
                            the FAR. Agencies will use this information to complete the revised reporting
                            fields in FPDS-NG that will meet reporting requirements. We believe this
                            will help DHS monitor and report its foreign purchases.

                            Continue Manual Data Collection

                            DHS issued Acquisition Alert 06/02 DHS: BAA Reporting Requirement that
                            required all OEs to continue manual data collection required for reporting on

8
    Department of Defense, General Services Administration, and the National Aeronautics and Space Administration.

                                               Buy American Act Compliance

                                                          Page 7
     foreign and domestic purchases. DHS plans to continue manual data
     collection until completion of the FPDS-NG revisions.




Recommendations
     We are making no additional recommendations at this time, but will continue
     to monitor the status of our June 2005 recommendations.

Management’s Response
     We provided management a discussion draft and held an exit conference to
     discuss the report on April 6, 2006. Management concurred with all of the
     report information. DHS will continue to manually monitor BAA compliance
     until changes to FPDS-NG are complete.




                    Buy American Act Compliance

                              Page 8
Appendix A
Purpose, Scope, and Methodology



                            Our audit objective was to determine whether DHS complied with the BAA as
                            required by FAR Part 25. In this audit, we focused on follow-up of our prior
                            June 2005 report recommendations and reviewed a sample of contracts with
                            and without foreign purchases to determine if those contracts were in
                            compliance with BAA. Our contract review was limited to BAA compliance.

                            Our fieldwork began in December 2005 and continued through April 2006.
                            Fieldwork included interviews and discussions at OCPO, CBP, ICE, TSA,
                            USCG, OPO, FEMA, FLETC and USSS. We conducted the audit pursuant to
                            the Inspector General Act of 1978, as amended, and according to generally
                            accepted government auditing standards.

                            To identify the process DHS uses to monitor and report its BAA compliance,
                            we interviewed each DHS OE’s Head of Contracting Authority (HCA). The
                            discussions addressed issues concerning BAA policies and procedures,
                            automated contract writing systems, BAA compliance review process, and
                            BAA reporting. Our discussions focused on changes made in each OE’s
                            policies and procedures for monitoring and reporting since issuance of our last
                            audit in June 2005. Also, we interviewed the HSCIS administrator and the
                            program manager for the FPDS-NG to discuss system limitations and
                            capabilities for monitoring BAA compliance.

                            As noted in our June 2005 report, system limitations impacted DHS’s ability
                            to identify its total population of foreign purchases. These limitations
                            continue to exist. Further, although DHS required its OEs to manually monitor
                            FY 05 foreign purchases and to submit an FY 05 Foreign Purchase Report to
                            the OCPO by October 31, 2005, the majority of the OEs initially either failed
                            to submit a report or showed a negative response to the data request at the
                            time of our review. Consequently, we could not identify a complete universe
                            of foreign purchases and could not use statistical sampling methods to assess
                            BAA compliance. Instead, we selected a nonbiased sample of contracts to
                            review for BAA compliance. As a result, we could not determine whether
                            DHS fully complied with BAA requirements on an agency-wide level.

                            We reviewed a total of 74 contracts totaling $199 million. Contracts reviewed
                            that contained FY 2005 foreign purchases totaled $31 million.9 We made our
                            initial selection from contracts included in the FY 2005 Foreign Purchase
                            Reports from each OE. For OE’s that did not report any foreign purchases,
                            we selected a sample of FY 2005 contract awards. We also compared the FY
                            2005 Foreign Purchase Reports to HSCIS generated reports of supply

9
    Amount represents total contract values. The exact amount of foreign and domestic-end products was not
    ascertainable.

                                               Buy American Act Compliance

                                                          Page 9
Appendix A
Purpose, Scope, and Methodology



                    contracts awarded with foreign countries of origin and noted any
                    discrepancies between the two reports.




                                    Buy American Act Compliance

                                              Page 10
Appendix B
Major Contributors To This Report


                     Tonda Hadley, Director, Dallas Field Office of Audits
                     Ruth Blevins, Audit Manager
                     James Nelson, Auditor-In-Charge
                     Greg Huff, Auditor
                     Cheryl Johnson, Auditor
.




                                    Buy American Act Compliance

                                              Page 11
Appendix C
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Acting Under Secretary for Management
                      Chief Procurement Officer
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      DHS OIG Liaison
                      CBP Audit Liaison
                      FEMA Audit Liaison
                      FLETC Audit Liaison
                      ICE Audit Liaison
                      S&T Audit Liaison
                      TSA Audit Liaison
                      USCG Audit Liaison
                      USSS Audit Liaison


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Program Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees as appropriate

                      Budget

                      Chief, Homeland Security Branch
                      DHS OIG Program Examiner




                                      Buy American Act Compliance

                                                Page 12
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
